<html>
<title> - HOW TO IMPROVE OPERATIONS AND IMPLEMENT EFFICIENCIES FOR THE UNITED STATES COAST GUARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                HOW TO IMPROVE OPERATIONS AND IMPLEMENT
                          EFFICIENCIES FOR THE
                       UNITED STATES COAST GUARD

=======================================================================

                                (112-48)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-580                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395e4956795a4c4a4d515c5549175a565417">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Farr, Hon. Sam, a Representative in Congress from the State of 
  California.....................................................     3

                               Panel Two

Bamford, Holly, Ph.D., Deputy Assistant Administrator for the 
  National Ocean Service, National Oceanic and Atmospheric 
  Administration.................................................     6
Currier, Vice Admiral John, Deputy Commandant for Mission 
  Support, United States Coast Guard.............................     6
Salerno, Vice Admiral Brian, Deputy Commandant for Operations, 
  United States Coast Guard......................................     6

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bamford, Holly, Ph.D.............................................    25
Currier, Vice Admiral John, and Salerno, Vice Admiral Brian, 
  joint statement................................................    32
Farr, Hon. Sam...................................................    34

                       SUBMISSIONS FOR THE RECORD

H.R. 1171, a Bill to reauthorize and amend the Marine Debris 
  Research, Prevention, and Reduction Act........................    37
Farr, Hon. Sam, a Representative in Congress from the State of 
  California, submission of 26 letters of support for H.R. 1171..    46
United States Coast Guard, additional information to the response 
  to question from Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington, regarding the status of the Davy 
  Crockett cleanup...............................................    21

[GRAPHIC] [TIFF OMITTED] T7580.001

[GRAPHIC] [TIFF OMITTED] T7580.002

[GRAPHIC] [TIFF OMITTED] T7580.003

[GRAPHIC] [TIFF OMITTED] T7580.004



                       HOW TO IMPROVE OPERATIONS
                     AND IMPLEMENT EFFICIENCIES FOR
                     THE UNITED STATES COAST GUARD

                              ----------                              


                         TUESDAY, JULY 26, 2011

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. The subcommittee is meeting today to review various ways 
to improve operations and implement efficiencies at the Coast 
Guard, as we look to draft legislation to reauthorize the 
Service. The Coast Guard's current authorization expires at the 
end of this fiscal year. As such, it is time to review the 
issues before us, and open the discussion on the legislation.
    Today's hearing will do just that, as we will highlight 
those issues we wish to address, and discuss the best way 
forward among ourselves, and with the Service's senior 
leadership. Admirals Currier and Salerno are appearing before 
us to provide an opportunity for that discussion. I look 
forward to hearing their perspective on how we continue to move 
the Service in the right direction.
    The crux of any good legislation is a strong foundation. 
Our subcommittee has held nine hearings over the first 7 months 
of this Congress, and we have identified several issues that 
need to be addressed. Today is an opportunity to revisit our 
most important priorities and ensure that we are well informed 
before we begin to legislate.
    As you all know, I am especially interested in issues 
including Servicemember parity, challenges and delays in the 
Coast Guard's acquisition program, and ways to make operations 
more effective. I also want to ensure we are spending taxpayer 
dollars efficiently.
    Specifically, as I have raised before, I am very concerned 
that we have spent over $3 billion to build National Security 
Cutters over the last decade, when the GAO recently found that 
they provide little additional capability over the 40-year-old 
vessels they are replacing. This is really hard to believe, but 
something we are certainly going to have to get into.
    I am also concerned that taxpayer is going to have to spend 
tens of millions more each year to support a new headquarters 
building for the Coast Guard. It appears this is being done 
just to satisfy the Secretary's desire to consolidate DHS 
agencies at the old mental hospital in Anacostia. Now we 
understand these costs may rise farther, as the appropriators 
have decided not to provide funding to move any additional 
agencies. These issues, among others, will be addressed in the 
next authorization.
    However, it is important that we address them in ways that 
actually correct problems, and make the Coast Guard a stronger 
organization. The men and women protecting our Nation deserve 
the very best. It is incumbent upon us to provide them a strong 
reauthorization.
    Today we will also examine a marine debris program which is 
due for reauthorization this year. As such, it is important we 
understand exactly how NOAA administers this program, and how 
they envision doing so in the near future. Dr. Bamford of the 
National Ocean Service is here today to provide us with that 
insight.
    And our colleague, Mr. Farr, has taken a special interest 
in marine debris, and has introduced a reauthorization bill. We 
will have a chance to hear the finer points of his proposal and 
explore solutions as we move towards reauthorization.
    I want to thank the witnesses for being here today. And 
with that, I would like to yield to Mr. Larsen for his 
statement.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you for 
convening this morning's hearing concerning the operations and 
programs of the U.S. Coast Guard. We welcome this opportunity, 
as we jointly begin the process of developing authorization 
legislation for the Service.
    The Coast Guard is a multimission agency responsible for a 
broad range of activities, including mariner licensing, 
emergency oil spill response, vessel inspections, and search 
and rescue operations. These and many other activities of the 
Service are indispensable, and ensure that our coasts and ocean 
resources are protected, that our ocean, great lakes, and 
inland waterway commerce remain safe and efficient, and that 
our maritime industries continue to be vibrant sources of jobs 
and economic opportunity for the American people.
    Despite the vital importance of the Coast Guard, the 
albatross that has hung around the Service's neck for years is 
that rarely, if ever, has it been given the resources 
sufficient to meet its responsibilities, even as Congress has 
expanded those responsibilities. At our budget oversight 
hearing on March 1st, we heard a lot about the Coast Guard 
doing more with less. However, I believe we have also 
established that the more likely outcome of fewer resources is 
that our U.S. Coast Guard will be doing less with less.
    I have seen no new information since then to alter this 
view. The fiscal year 2011 budget resolution approved in April 
largely spared the Coast Guard from Draconian cuts many other 
agencies faced. This is cold comfort, however, considering the 
massive cuts in discretionary spending across all Federal 
programs that are being proposed, portending even less funding 
than what is presently available to address the Coast Guard's 
many needs and its efficiencies.
    We are past time when we can discuss budget cuts in the 
absent, or we can blithely toss out bromides and expect the 
Coast Guard to secure ports, maintain aids in navigation, or 
respond to natural or human caused disasters with diminished 
resources. With this thought in mind I urge this morning that 
we not simply replow ground we have visited before, but that we 
look forward.
    Certainly we need to examine the Coast Guard's operations 
and programs to ensure they are mission driven, cost effective, 
and accountable. But that is not enough. We also need to 
constructively engage the Service in developing a sound, 
balanced path forward that realigns our expectation with a 
level of performance that we can reasonably expect the Coast 
Guard to deliver, and we will need to do this within the tight 
budgets the Service likely will receive in the foreseeable 
future.
    As part of this engagement, we should examine joint 
programs, of which the Coast Guard is a partner, to see how we 
might improve their implementation to better leverage Federal 
investments. Partnership programs such as activities 
implemented by the Coast Guard and the National Oceanic and 
Atmospheric Administration under the Marine Debris Research, 
Prevention, and Reduction Act can offer a tested and effective 
business model to expand the capabilities of Federal agencies, 
while also building effective working relationships with non-
Federal stakeholders.
    I look forward to hearing the views of our colleague from 
California, Representative Sam Farr, on the marine debris 
programs implemented by the Coast Guard and NOAA, and I look 
forward to working with him and Chairman LoBiondo in moving his 
legislation that would reauthorize a marine debris act through 
the committee.
    I also urge, Mr. Chairman, that as we move ahead with the 
Coast Guard reauthorization bill, that we not lose track of 
several good ideas to increase economic opportunity and enhance 
jobs that were raised during the June 14th hearing concerning 
the marine transportation system. Job creation remains my 
highest priority. And if there is an opportunity to move 
legislation in this Congress that can jumpstart job growth in 
the maritime sector and put people back to work on the docks 
and at sea, I stand ready and willing to work with you, 
shoulder to shoulder, to reach a successful outcome.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Larsen. Master Chief Coble, do 
you have an opening statement?
    Mr. Coble. No statement, sir.
    Mr. LoBiondo. OK. Thank you for being here. Our first 
witness today is the Honorable Sam Farr, representing 
California's 17th District. Sam, thank you for appearing here 
today, and we look forward to hearing your testimony.

 TESTIMONY OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman. As a 
legislator with a Coast Guard station in my district, I really 
appreciate you doing this oversight hearing, and look forward 
to working with you.
    But I am here also to thank you for holding the hearing on 
the bill H.R. 1171. This is a bill that Don Young and myself 
have introduced, along with other Members, and we are very 
appreciative of the opportunity to have this hearing.
    Our oceans are in trouble. And we have exclusive 
jurisdiction--ownership, essentially--out to 200 miles around 
the continental United States. And much of it is full of debris 
and garbage, both domestic and foreign, that has come from 
other parts of the world. Fourteen billion pounds of trash end 
up on our beaches and in the ocean every year, and they are the 
dumping ground for everything we don't want on land. When you 
think about it, our sewage outfall goes in there, garbage goes 
in there. We've even had nuclear waste stored in the oceans off 
San Francisco. The list goes on and on. When we wanted to dump 
the old Bay Bridge, we dumped it in the ocean offshore, and 
fishermen get their nets stuck in that huge mess of an 
industrial dumping site.
    We have over 270 species that are impacted by ocean trash, 
and many of those species are commercial fisheries. And up to 
100,000 marine mammals die each year from marine debris.
    In addition to these environmental impacts, the economic 
impacts of marine debris can be devastating. Every year, over 
77.8 million Americans from all over the country visit a beach. 
Most of our constituents, no matter where you are in the United 
States, take time to go to the beaches, making large 
contributions to the local tourism economy. What would happen 
if you were visiting a beach and it looked like this picture up 
here on the wall? Imagine the impact of trash to the businesses 
that are trying to survive off of the tourism caused by the 
attraction of the beach, and then to encounter that kind of 
trash?
    So, Mr. Chairman, it is--as you know, in New Jersey, where 
in 1988 the State woke up the world with the announcement of 
all the medical waste that had washed ashore. I remember our 
former colleague, Jim Saxon, just becoming a big convert on 
cleaning up the oceans because of that incident that hit both 
New Jersey and New York. This incident in 1988 cost $3.6 
billion in lost tourism revenues.
    Our country has come a long way since then, but keeping our 
beaches clean still requires significant resources. For 
example, the city of Long Beach in California spends a whopping 
$17 million each year keeping its beaches trash free.
    In 2006, Congress recognized this problem by passing, and 
without a single negative vote, the original Marine Debris Act, 
which this bill reauthorizes. The law established programs 
within NOAA and the Coast Guard to address the problem of 
marine debris.
    Additionally, the law laid the foundation for partnerships 
between Coast Guard, NOAA, and other Federal agencies with the 
creation of an interagency marine debris coordinating 
committee. Since enacted, this multi-agency approach has 
allowed NOAA and the Coast Guard to coordinate research 
priorities, monitoring techniques, education programs, and 
regulatory actions. Ultimately, these Federal partnerships let 
NOAA and the Coast Guard to more with limited resources.
    NOAA and the Coast Guard have also formed public-private 
partnerships with local communities, academic institutions, and 
the private sector and the fishing industry. These public-
private partnerships leverage private funds, resulting in more 
resourceful and successful Federal programs. These partnerships 
have been particularly effective in addressing derelict fishing 
gear. Derelict gear can devastate the value of marine 
fisheries.
    For example, over $250 million of marketable lobster is 
lost every year in the U.S. to derelict gear, a process called 
ghost fishing--the gear is lost, and it just keeps floating 
around, and gets snagged--and things get snagged into it and 
never get recovered. In a time where our fishermen are already 
facing economic challenges, losses of this magnitude are simply 
unacceptable.
    In response to this, we have a program called Fishing for 
Energy, a partnership formed between the Coast Guard, NOAA and 
Covanta Energy and Schnitzer Steel. In this partnership, NOAA 
and the Coast Guard remove derelict gear from the marine 
environment. Then Covanta Energy and Schnitzer Steel recycle 
the gear, and produce electricity.
    In the northwest Hawaiian Islands, over 1.4 million pounds 
of derelict gear have been removed and recycled to produce 
enough electricity to power 260 homes for an entire year.
    In addition, the Fishing for Energy partnership has 
installed recycling bins at 25 ports across the country, where 
fishermen can dispose of their old gear at no cost. This 
provides the fisherman an alternative to costly landfill 
disposal, as well as an incentive to retrieve any derelict gear 
that they might find in the water. These bins have already 
accumulated over a million pounds of gear. In just Cape May, 
New Jersey, the bins have collected over 48 tons--I believe 
that's in your district.
    In addition to partnerships that increase efficiency, 
Federal resources are further amplified by granting matching 
requirements of at least 50 percent. In 2005 through 2009, this 
law has funded 86 projects with only $6.3 million. And these 
funds leveraged an additional $7.9 million in non-Federal 
funds.
    One project in particular that is funded through the law is 
the International Coastal Cleanup. In 2010 the United States 
had over 240,000 volunteers who cleaned up 4.5 million pounds 
of trash. This vast participation indicates that the public 
support for marine debris cleanup is widespread.
    I have over 25 letters of support from a variety of 
stakeholders including fishermen, mapping companies, science 
organizations, local non-profits, and I ask that these letters 
be submitted to the record.
    In sum, both interagency and public-private partnerships 
have leveraged the resources and capacity of the Coast Guard. 
We must act now to ensure that these partnerships are not only 
maintained, but are strengthened. It is through these 
partnerships that our country can most effectively and 
efficiently address the impacts of ocean trash on marine 
ecosystems, coastal economies, and navigation safety. With 
reauthorization, a steady stream of funding, the Coast Guard 
will continue to make significant strides in tackling the 
problem of marine debris.
    So, I ask this committee to reauthorize this bill. There is 
a companion bill in the Senate introduced by Senator Inouye, 
and we hope that both of those bills will be moving.
    Mr. LoBiondo. OK, Sam, thank you for your testimony today, 
for your leadership on this issue. Do we have any Members that 
wish to comment on Mr. Farr's?
    [No response.]
    Mr. LoBiondo. thank you, Sam, we will be in touch.
    Mr. Farr. Thank you very much. Thank you for your time.
    Mr. LoBiondo. We will now be prepared for the second panel 
of witnesses, that will include Coast Guard Vice Admiral John 
Currier, the deputy commandant for mission support; Vice 
Admiral Brian Salerno, the deputy commandant for operations, 
and Dr. Holly Bamford, deputy assistant administrator at the 
National Ocean Service. I welcome our guests here today.
    Let me start off by thanking the Coast Guard for the 
response that they provided us that--in a letter that we sent 
to Secretary Napolitano concerning the delivery of the Coast 
Guard's fleet mix analysis. I appreciate that.
    Admiral Currier, the floor is yours.

 TESTIMONY OF VICE ADMIRAL JOHN CURRIER, DEPUTY COMMANDANT FOR 
MISSION SUPPORT, UNITED STATES COAST GUARD; VICE ADMIRAL BRIAN 
SALERNO, DEPUTY COMMANDANT FOR OPERATIONS, UNITED STATES COAST 
GUARD; AND HOLLY BAMFORD, PH.D., DEPUTY ASSISTANT ADMINISTRATOR 
     FOR THE NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Admiral Currier. Thank you, sir. Chairman LoBiondo, Ranking 
Member Larsen, members of the subcommittee, thank you for the 
opportunity to discuss Coast Guard mission support activities 
as part of the subcommittee's efforts to develop a 2011 
authorization bill for the Coast Guard.
    As the deputy commandant for mission support, I have 
primary responsibility to ensure that Coast Guard has the 
people, platforms, systems, and logistics necessary to meet our 
mission demands. This could not be accomplished without the 
resources and authorities that are provided to us and the 
Service by Congress and the administration.
    I want to take this opportunity to note the role of this 
subcommittee, including language in the Coast Guard 
Authorization Act of 2010 that further strengthens the 
capabilities of our acquisition program, and enhances housing 
and child care benefits to Coast Guardsmen on a par with those 
available to the armed services. I look forward to working with 
the subcommittee to continue these efforts, as you continue the 
development of authorizing legislation.
    Since the creation of a centralized acquisition directorate 
in 2007, and continuing with the establishment of mission 
support enterprise, the Coast Guard as made significant changes 
that are resulting in improved performance and management over 
acquisition programs. This includes enhanced governance through 
compliance with requirements under our major systems 
acquisitions manual, or MSAM, and expanded roles for Coast 
Guard technical authorities in the Department of Homeland 
Security. We are better positioned now to execute all aspects 
of the acquisition lifecycle, including follow-on logistics, 
and to consider tough trade-offs when necessary.
    Our recapitalized assets are in the field today, sir, 
providing enhanced safety and security for the American public. 
We have accepted delivery of two National Security Cutters, and 
they are demonstrating capabilities beyond our legacy fleet, 
and challenging conditions in the Bering Sea and the eastern 
Pacific. The third cutter, Stratton, has just completed 
successful builder's trials. In May, the first steel was cut 
for the fourth hull, and we anticipate awarding a production 
contract for the fifth NSC later this summer.
    The commandant has frequently stated that we need eight 
NSCs, and we are on our way to acquiring these critical assets 
for the Coast Guard with stable requirements, predictable 
costs, and pre-identified risk. At the same time, the first 
seven hulls of the Fast Response Cutter are under production, 
and we are conducting pre-acquisition activities for the 
Offshore Patrol Cutter fleet. Together with our recapitalized 
aviation fleet, small boats, and C4ISR assets, these cutters 
will bring enhanced capabilities across the Coast Guard's 
mission set.
    The commandant has made the recapitalization one of our 
Service's highest priorities, and I know that this subcommittee 
shares our interest in replacing these old ships and aircraft 
as quickly as possible at the best value to the American 
taxpayer.
    These initiatives would not come to fruition without the 
men and women who formed the very core of our organization. 
Much of the Coast Guard's work is done under extremely 
challenging conditions. But we continue to attract and retain a 
highly skilled workforce.
    As you are aware, we are moving forward with construction 
of the new Coast Guard headquarters at St. Elizabeths campus, 
which is also the result--which will result in a more efficient 
Coast Guard at the programmatic level. With several 
headquarters elements in one location, I am confident that we 
will benefit from increased collaboration and efficiency, not 
only within our organization, but also through partnership with 
the subsequent DHS agency collocations, or relocations to that 
site.
    However, we anticipate our St. Elizabeths lease cost to 
exceed that we are currently spending on leases. The projected 
recurrent lease cost for the Coast Guard's portion of St. 
Elizabeths is approximately $95 million per year, over $42 
million more than we are currently paying for the two buildings 
that we occupy. We are currently working closely with the 
Department to close that gap and move forward with this 
important transition.
    Thank you, sir, for the opportunity to discuss the efforts 
of the mission support organization. And I will be glad to 
answer any questions that you might have. Thank you.
    Mr. LoBiondo. Thank you, Admiral.
    Admiral Salerno, you are recognized.
    Admiral Salerno. Good morning, Chairman LoBiondo, Ranking 
Member Larsen, and distinguished members of the subcommittee. 
Very happy to be here to testify, together with my good friend, 
Vice Admiral Currier, and update you on how we are improving 
operations and implementing efficiencies within the Coast 
Guard.
    The Coast Guard has used the authority provided by the 2010 
authorization act to finalize our leadership structure. 
Specifically, we have created a three-star deputy commandant 
for mission support and a three-star deputy commandant for 
operations. This move helps provide clarity to the entire 
Service. It underscores that every function performed by our 
workforce is tied either to mission execution or to mission 
support, and it reinforces the mutually dependent nature of 
these two broad categories of work.
    As the deputy commandant for operations, my 
responsibilities include developing the operational 
requirements necessary to accomplish Coast Guard missions. This 
includes the establishment of performance plans, and then 
tracking performance to ensure we are meeting our objectives. 
It also includes identifying the right characteristics for the 
ships, aircraft boats, communications, and sensor systems 
needed to operate effectively.
    And equally important, it involves looking to the 
professionalism of our workforce, by making sure that we have 
the proper policies and guidance in place for our people to 
have a clear understanding of how to operate, how to conduct 
their mission safely and efficiently, and with a proper focus 
on our national maritime interest and the public we serve.
    The majority of the 137 provisions of the Coast Guard 
Authorization Act of 2010 represent action items for which I am 
responsible. To comment on just a few aspects of the act, we 
have identified 29 provisions of the act which require 
promulgation of regulations; 16 of these are being incorporated 
into existing rulemaking projects in order to expedite their 
implementation. We are, of course, also actively working on the 
other 13 projects.
    The act also requires 54 new congressional reports, of 
which 9 have already been delivered to Congress, and the 
remaining are either in progress or under review.
    In May the Coast Guard briefed the subcommittee staff on 
our progress achieving the action items under the authorization 
act. Since that time, we have satisfied some additional 
requirements, and I am pleased to note that the Coast Guard 
completed its review of the rules for the use of force by U.S. 
merchant vessels in defense against piracy, and we have 
provided guidance to the industry.
    Also, the high-latitude study was provided to Congress on 
July 20th, as you mentioned, and the notice of proposed 
rulemaking for towing vessels has been sent to the Federal 
Register.
    Recently the Coast Guard also testified on our regulatory 
program, and we highlighted the many improvements we have been 
able to put in place, thanks to the investments made by 
Congress in 2008 and 2009. These investments have allowed us to 
reduce the average time required to produce regulations, and 
reduce the backlog of regulatory projects. Although the 
downward trend has been somewhat offset by the new projects 
added by the 2010 authorization act, we expect that the 
internal efficiencies will continue to result in reduced 
regulatory backlog over time.
    I want to assure the committee that we take very seriously 
the direction provided by Congress. In organizing our 
regulatory workload we ascribe the highest priority to 
rulemaking projects which are mandated by legislation. In 
addition, we make every effort to ensure that the regulations 
we promulgate are practical, effective, and are pursued by the 
full appreciation of the economic burden on those who must 
comply with them. Thank you, and I look forward to answering 
your questions.
    Mr. LoBiondo. Thank you, Admiral.
    Dr. Bamford, you are recognized.
    Ms. Bamford. Good morning. Mr. Chairman and members of the 
subcommittee, thank you for this opportunity to testify on H.R. 
1171, the Marine Debris Act Reauthorization Amendment of 2011.
    Previous to my current position, I served as director of 
NOAA's marine debris program, and was involved in the inception 
in 2005. I look forward to contributing my experience on marine 
debris at today's hearing. To that end, I would like to share 
with you a story.
    It was August 29, 2005, a day he will never forget. 
Returning from the Coast Guard office in New Orleans to his 
home in Baton Rouge, Charlie Henry, from NOAA's office of 
response and restoration, knew something big was coming. But he 
had no idea how just terrible the force would be. Born in 
Louisiana, and working for NOAA as a regional scientific 
support coordinator, Charlie knew from experience, and the 
reports coming through the weather service, that it was going 
to be a devastating storm. He feared the incredible crushing 
blow that would turn out to be the most destructive hurricane 
to hit the United States, Hurricane Katrina.
    That part of the story might sound familiar to you. The 
part that may not know is the addition to the devastating 
injury to life on land, Hurricane Katrina also destroyed marine 
infrastructure on a wide scale, depositing enormous amounts of 
debris into the water, both on and off shore. This posed an 
even further--and many times unseen--threat to people, boats, 
navigation, and commercial activities.
    Fishing is a major way of life in the Gulf Coast, where 
commercial fishing alone accounted for an estimated value of 
$700 million a year. As the Gulf began to rebuild their lives 
in the wake of the hurricane, they encounter dangerous debris 
in channels and offshore Gulf waters.
    Following the storm, the Coast Guard, the Army Corps, and 
NOAA worked together to survey and clear debris from major 
navigational waterways, as mandated by existing requirements. 
Near shore areas outside of navigable waterways, however, were 
not required to be cleared. Yet many areas contain large 
amounts of debris in the fishing regions.
    To help restore the area's fishing grounds and reduce the 
risk to public safety, in 2006 and 2007 Congress authorized 
supplemental funding to NOAA for surveying and mapping these 
areas that were impacted by Hurricane Katrina along the coast 
of Alabama, Mississippi, and Louisiana. It was because of the 
Marine Debris Research, Prevention, and Reduction Act, which 
established a formal NOAA program in NOAA, that my team were 
able to fulfill the request of Congress for NOAA to carry out 
these tasks.
    The opportunity to provide real assistance to the storm 
ravaged community meant a tremendous amount to my team, to my 
friend and colleague, Charlie Henry, and to me, as a fellow 
American. Working with Charlie and NOAA's office of coast 
survey, we surveyed over 1,570 square nautical miles, and 
identified over 7,000 marine debris hazards that were plotted 
on 137 marine debris maps. Some of the areas have not been 
surveyed since the 1940s, so NOAA was able to use these data to 
update nautical charts covering the regions, including over 200 
dangerous to navigation.
    The debris information was provided to the Coast Guard, to 
FEMA, States, in order to assist in debris assessments and 
removal projects. We also developed a public Web site that grew 
exponentially with visits from boaters and fishermen who 
downloaded the debris maps to avoid debris that could damage 
their boats and snag their gear.
    In the end, NOAA provided a much-needed service to the Gulf 
Coast community in support of recovery, and this experience 
helped shape NOAA's marine debris efforts and subsequent 
disasters, such as response to tsunami in American Samoa in 
September of 2009, and the recent tsunami in Japan.
    The story I recounted today is on an acute incident 
addressed by the marine debris program in NOAA. But it's those 
chronic debris issues that NOAA deals with on a regular basis 
that accounts for the majority of our efforts. The Marine 
Debris Act of 2005 authorized NOAA to establish a program to 
reduce and prevent the impacts of marine debris on the marine 
environment. The Reauthorization Amendment of 2011 provides a 
much stronger authority and clearer guidance to NOAA to address 
the impacts of various types of debris on a local, regional, 
national, and international scale.
    The reauthorization amendment calls out NOAA's role in 
national regional coordination to assist the States, Indian 
tribes, and regional organizations to address marine debris 
that are particular to their areas. This strengthens the role 
of our regional coordination station around the country, 
including Hawaii, Alaska, the west, the east, the Gulf Coast, 
and the Great Lakes.
    It also provides NOAA the authority to develop and 
implement strategies to promote international action to reduce 
the incidence of marine debris, such as supporting our efforts 
to assess debris generated from the Japanese tsunami.
    Furthermore, the reauthorization directs NOAA to develop 
the needed tools and products to improve efforts to address 
marine debris, and make these available to researchers, the 
marine debris community, and the general public.
    NOAA is committed to the goal of reducing the impacts of 
marine debris on our coasts and oceans, and I look forward to 
working with the subcommittee to achieve this outcome.
    Thank you again for the invitation for me to discuss H.R. 
1171, and the benefits of reauthorizing this NOAA program. I am 
happy to address any questions. Thank you.
    Mr. LoBiondo. Thank you very much. Admiral Currier and/or 
Salerno, these next couple of questions will be for you.
    On the asset recapitalization programs, in spite of a 
series of acquisition reforms undertaken by the Coast Guard, 
there are still significant capability gaps and delays in 
acquisition projects. The Coast Guard has spent 10 years and 
more than $3.5 billion to acquire five National Security 
Cutters.
    Congress agreed to the purchase of these vessels, based on 
a greatly enhanced geographic area the cutters could cover with 
two new classes of cutter boats, aerial unmanned vehicles, and 
a greater number of days at sea the cutters could achieve. GAO 
has recently found that the NSC provide no additional 
capabilities over the existing 40-year-plus-old cutters. The 
two new classes of cutters have not been acquired, nor is there 
a plan to provide unmanned aerial vehicles. The NSC's vessels 
operate away from port only half of the year.
    Why does the Service continue to face delays in selecting 
and acquiring cutter boats for the National Security Cutter, 
and when will these boats be acquired?
    Admiral Salerno. Sir, if you will permit us, we will maybe 
take different parts of that question and answer it. I would 
like to talk upfront just about the difference between the NSC 
and the 378, the High Endurance Cutters.
    There is a substantial difference between the two vessels, 
sir. This program was designed to provide additional 
capability. That is why we only have 8 NSCs at the program of 
record, versus the 12 HECs. But just to give you a flavor, the 
National Security Cutter has the ability to land an H60 
helicopter; the 378 does not. The NSC can accommodate 2 H65 
helicopters; the 378 can only accommodate 1. NSC will have two 
Over-The-Horizon cutter boats versus one on the High Endurance 
Cutter. And it also has the skiff capabilities for classified 
material, which is not resident in the 378.
    What we have noticed and observed in the deployment of 
Bertholf, the first operational NSC, she has been extremely 
effective, both in her counterdrug deployments--involved in two 
drug interdictions, highly effective in that role, using her 
cutter boats that are equipped with the vessel currently. And 
we also had experience in Alaska, where Bertholf was able to 
launch and recover aircraft in 20-foot seas, which is 
substantially greater than what is--the capabilities of the 
High Endurance Cutter, which is closer to 8-foot seas. So, we 
are seeing a dramatic increase in capability with this ship, by 
design.
    Now, the cutter boats, as you point out, the ones that are 
on board right now will not be the ultimate boats that will be 
on board. There is a cutter boat OTH-IV, the operational 
requirements are being worked now. But we will replace the 
existing OTH boats with that OTH-IV, as well as a long-range 
interceptor. So, some of the boat issues are still playing out 
as separate acquisitions, but companion acquisitions to the 
ship acquisition.
    Unmanned aerial systems, likewise. We continue to work very 
closely with the U.S. Navy on shipboard systems. I think you 
are aware we have been working with them on the fire scout. But 
we are also looking at other options, such as scanned eagle. 
And on land-based UAS, of course, we are working with CBP.
    And then let me ask my colleague, Admiral Currier, to talk 
about some of the acquisition-specific aspects of your 
question.
    Admiral Currier. Thank you, Admiral Salerno. Sir, we are in 
the middle of acquiring a complex system, based on the National 
Security Cutter, but it is a system. It's a system that 
encompasses fast response boats that prosecute the missions, 
meet the threats; a MDA package including unmanned aerial 
vehicles, eventually; manned helicopters, supplemented by 
manned and unmanned longer range, higher altitude surveillance, 
capped by a C4I system that actually allows us to not only 
capture the data, but prosecute the data to mission effect.
    This is a complex acquisition, and we have had our issues 
beginning the National Security Cutter acquisitions, but I 
believe we're on track, sir. As I said in my opening statement, 
we have one in service, the second one is about to go into 
service. The third one is about to be accepted by the Coast 
Guard. We are cutting steel on four, and we are about to award 
the contract on five.
    We are now in an era of stable requirements, fixed-price 
contracts, where risks are identified and quantified and known 
upfront. We have a mature department whose acquisition 
oversight is enhancing our ability to acquire. And with the 
interest that--I thank you again for the interest of this 
committee--the input and support of this committee has also 
enhanced our ability to acquire these systems.
    This complex acquisition can't be brought together in total 
harmony. There are design issues, there are schedule issues 
that we hit. However, as we bring the National Security Cutter 
on board, we are progressing unmanned aerial vehicles. We have 
integrated our manned helicopters with them.
    We are in an aggressive program to buy two types of boats. 
And what we discovered, sir, is that, rather than buy an 
individual small boat for each class of cutter that we're 
buying, we now will buy only two types of small boats, a 7-
meter fast prosecutor, and an 11-meter, longer range 
interceptor. The first one that was--the first long-range 
interceptor that was delivered could not do the job. The 
requirements were such that the state-of-the-art boat building 
did not get us there. Caused us some delays. We are back out 
with design on that boat now.
    The shorter range, faster boat is--we are--we have awarded 
a contract to four companies to design prototypes, and we will 
down-select one and roll right into production next year. So I 
think we are on track here.
    As far as the unmanned aerial vehicle goes, I was part of 
the group that made the decision to extract us from our 
original foray into that--the science of unmanned aerial 
vehicles. The Coast Guard is a midsized Federal agency with 
some distinct capabilities, but also some limitations. We do 
not have the ability to do the science required for integration 
of a rotary wing unmanned aerial vehicle. So we partnered with 
the Navy, and we are closely partnering with them today as they 
develop their solutions. They are integrating our requirements 
into them.
    So, sir, I think this is a success story. It is not 
perfect, by a long shot. But we are on track today, as I said 
before, to a cost control environment where risks are 
predicted, and schedules are adhered to. Thank you, sir.
    Mr. LoBiondo. Well, you should by now know that this 
subcommittee are some of your biggest cheerleaders. But if a 
Member of Congress picks up this GAO report--if you put 
yourself in their shoes--this is not a good story.
    And as we get into tighter and tighter and tighter 
appropriations and budget cycles, the stories that don't read 
well are the ones that become the easiest targets. I don't 
think I need to explain that further, of what's at stake here. 
A lot of us have worked long and hard to pump up the 
acquisition dollars and get us there.
    So I have got some additional questions, but I want to now 
split it up a little bit and turn to Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. With regards to the 
headquarters relocation, the Homeland Security Appropriations 
Act for fiscal year 2012 didn't include funding for agencies 
within the Department, except the Coast Guard, to relocate to 
the new campus. And of course, we've got some issues with the 
lease. Can you cover for us what you are doing to try to 
decrease the difference in the lease cost between what your 
current lease costs are, and what your lease cost will be at 
St. Elizabeths?
    Admiral Currier. Yes, sir. Thank you for that question.
    First of all, let me back it up just a second, if I could, 
and just say I have walked the ground over there. We have 
looked very closely at the design. We have collaborated with 
both the Department of Homeland Security and the General 
Services Administration on the design of the campus. I think I 
can say with a pretty solid level of confidence that we will be 
better off there, in a consolidated environment.
    There are deltas, there are gaps in the lease of what we 
are paying now to what we will be paying over there, and we are 
working closely with the Department, as we work our budget in 
2013 and 2014 in the outyears to ensure that no Coast Guard 
operational capabilities are degraded because of the lease cost 
in moving to St. Elizabeths. So----
    Mr. Larsen. But how are you going to do that? I understand 
you're going to try to do that, but you're talking about a $42 
million difference, is that right, per year?
    Admiral Currier. Well, our projection at this point for 
fiscal year 2013, because we will have a shared GSA lease cost 
on the existing facility, and also accepting some level of 
occupancy at St. E's, plus the move costs, are about a $54 
million tag over what we are paying now for steady-state 
occupancy of the two buildings we are in.
    We are, as I said, working closely with the Department to 
find out where that fits in the Coast Guard top line, where 
that fits in the Department's top line. But they have--in close 
collaboration with the under secretary for management, with 
whom I work on a near-daily basis, we are looking for those 
solutions. I cannot give you the details of the solutions, it 
is still projected in the 2013 budget, which is under--being 
worked at this time. It is fully recognized, and our goal is 
that we will have no compromise in Coast Guard operations due 
to any increased lease cost for the new facility.
    Mr. Larsen. Dr. Bamford, with regards to the 1171, in your 
testimony you noted there is one additional change you 
suggested in your written statement, that Congress should 
revise the definition of the term ``marine debris'' to adopt 
the definition developed jointly between NOAA and the Coast 
Guard.
    Are there any other changes you are suggesting to the bill? 
To the--through reauthorization are you suggesting other 
changes, beyond that one?
    Ms. Bamford. No.
    Mr. Larsen. So that--so the main change would be the 
definition of ``marine debris''?
    Ms. Bamford. That is correct. We have--in the previous bill 
of 2005 we worked directly with the Coast Guard in developing a 
definition that has now been put into law. We had out for 
public comment, so we support that previous definition that was 
worked in joint with the Coast Guard.
    Mr. Larsen. OK. NOAA awarded $4.6 million under the 
Recovery Act to the Northwest Straits Marine Conservation 
Foundation. And that enabled the Foundation to remove over 
3,900 derelict fishing nets. In fact, I was out a few weeks 
back on Alden Bank with some of the folks between Point Roberts 
and Lummi Island, pulling up gear. I was not personally pulling 
up gear. I have no intention of becoming a certified diver and 
going 50 feet down into the cold waters of Puget Sound. That's 
why you have people doing that.
    But have all those funds been awarded under the grant, been 
obligated?
    Ms. Bamford. Yes, sir. All the funds have been awarded, and 
it was an 18-month project. They put about--an estimated 20 
full-time jobs were created through that project. It was--not 
everybody was a full-time employee, so about 50 individuals 
actually were brought into that, including divers, biologists, 
people working through and sieving through those nets. A number 
of different species--I think over 130,000 different species 
were captured in those nets, and they were fully removed, as 
you mentioned, from Puget Sound.
    Mr. Larsen. Yes, and were actually pulled up--
unfortunately, pulled up dead female rock crab and female 
Dungeness crab that obviously were not able to go on and 
produce little baby crabs.
    Ms. Bamford. Yes.
    Mr. Larsen. But some of the result of that is they seem to 
be thinking a growing abalone population up near Point Roberts, 
there is a benefit of it.
    Back to the Coast Guard, if I might--Representative Young, 
do you have a comment on that?
    Mr. Young. I just couldn't understand what you were saying 
about a little crab, but----
    Mr. Larsen. You couldn't understand what I was saying?
    [Laughter.]
    Mr. Larsen. Admiral Currier, are there other parity issues 
that are high priority for the Coast Guard, other than the 
parity issues with regards to the armed services?
    Admiral Currier. Yes, sir. Parity issues--I would say one 
of our prime parity issues would be the Title 10, Title 14 
utilization reserve, and to ensure that they are treated with 
parity, as far as paid benefits, and all the things that come 
with active duty service.
    To give you an example, we had people sitting next to each 
other in Deepwater Horizon who were active under Title 10, 
other people activated under Title 14, and they were not 
receiving the same benefit package. So we really need to work 
on that, and we are looking for the committee's support in 
that.
    Other areas of parity, we have made great strides in 
housing, but we have more progress that could be made in that 
area. Those are probably two main thrusts that we could look 
toward in the future. Of course our paid benefits for active 
duty are aligned with the defense authorization bill, 
appropriations bill, so that is pretty well taken care of. But 
there are some second-, third-tier, fourth-tier effects in 
medical, in housing, and those type areas that we would look 
for the committee's support in.
    Mr. Larsen. OK. Does the Coast Guard need some type of 
enhanced leasing authority, and has the Service looked into 
this issue?
    Admiral Currier. I am sorry, sir, I didn't hear that.
    Mr. Larsen. Well, it is my understanding that some Federal 
agencies have authority to enter into long-term leases of 
properties under their control in order to generate income that 
could be used to supplement appropriations. Does the Coast 
Guard need some type of enhanced leasing authority like that, 
and has the Service looked into that issue?
    Admiral Currier. Yes, sir. I think we could use--we would 
like to achieve parity with the Department of Defense, as far 
as terms of a lease go for excess Coast Guard property, or 
property that is not actively being used.
    Mr. Larsen. Yes.
    Admiral Currier. I think that the terms of lease that we 
are constrained under are 5-year, which allows the commandant 
to lease for 5 years. But that is not viable with many 
commercial entities that would want to engage the Coast Guard 
in that type of lease.
    I believe, sir, that the Department of Defense has 
authority for 20-year leases, and I think we would like to 
achieve that parity. It would put us in a better position.
    Mr. Larsen. OK. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Young, would you like to be recognized?
    Mr. Young. I would like to be recognized, Mr. Chairman. I 
do appreciate the Coast Guard, appreciate you having the 
hearings.
    Vice Admiral, the budget justifications suggest the United 
States will take one of our polar ice breakers out of service, 
and return to contracting with other nations for ice breaking 
operations. This is problematic for me, for two reasons. First, 
we would be sending United States taxpayer money to pay a 
foreign entity for a job we would be capable of accomplishing 
if we would properly maintain our own ice-breaking fleet, and 
second is that we have tried this before only to find that 
foreign ice breakers were not reliable, and our own ice 
breakers were called out of moth balls to action.
    Are there other basic service or activities in which the 
Coast Guard regularly contracts a foreign entity?
    Admiral Salerno. Sir, in that context, the only other 
example would be the break-out of Thule, Greenland, the DOD 
facility there, which is a Coast Guard responsibility, and we 
do have an agreement with the Canadian Government for that 
break-out. So they are, in fact, doing that on our behalf.
    Mr. Young. Well, let's go back to the ice breakers. Do 
you--who do we contract with the ice breakers, and do they have 
conflicting interests in the Arctic with the United States of 
America?
    Admiral Salerno. Sir, the Coast Guard does not directly 
contract with any foreign ice breakers. Foreign ice breakers 
have been used for the break-out of McMurdo Station in 
Antarctica. That contracting has been arranged through the 
National Science Foundation. In recent years they have used a 
Swedish ice breaker named Oden for that purpose, with U.S. 
Coast Guard ice breakers on standby, you know, should there be 
a problem.
    As you point out, sir, we currently have only one ice 
breaker that is fully operational. That is the cutter Healey. 
She is a medium ice breaker used predominantly for science 
activity in the Arctic. The two ``Polars'' are currently not 
operational. One is slated to be decommissioned, that's Polar 
Sea. And Polar Star is being refurbished to be put back into 
service in 2013, which will give her an extended life of about 
an additional 7 years.
    That is the Nation's ice breaking capacity, sir. We are the 
only entity in the U.S. Government that operates ice breakers.
    Mr. Young. Well, see, this is my question. You are way 
behind in ice breaking. I happen to fund those three ice 
breakers we have, and they're old. They weren't maintained. You 
tried your best. I think we are re-engineering one of them, but 
by decommissioning--what's the budget cost to decommission the 
Polar Star?
    Admiral Currier. Sir, we are going to decommission Polar 
Star and use some of the----
    Mr. Young. I said cost.
    Admiral Currier. We're looking at--$5 million, sir, is the 
figure I have for decommissioning.
    Mr. Young. If you keep it in commission, what does it cost?
    Admiral Currier. Well, sir, these ships, as you pointed 
out, are very difficult to maintain, and the service that they 
render is very hard on ships. We looked at a $62 million 
refurbishment of Polar Star to get her in a condition 
approaching what it needs to be for return to service. So that 
is currently what we have spent on Polar Star.
    Mr. Young. And that brings up my point of this whole 
questioning. You know, I have been in these hearings every 
time, and asked you why you don't lease some American ship 
builder to build a ship. Why do you have to own a breaker, when 
it costs you so much? And even when we recommission those 
ships, repair to any one of--they're very small ships.
    Admiral Currier. Sir, the----
    Mr. Young. And we have a big responsibility in the Arctic. 
And I have got the numbers about leasing a vessel, the 
maintenance taken by the builder, and crewing of and manning 
of. And I do believe, if you want to look at the money--because 
you're not going to get the money to building a new Coast Guard 
cutter--I mean ice breaker for the Coast Guard, not on this 
present climate. And we need to be up there, because you know 
what's happening. All their--Iceland, Greenland, Canada, 
they're all being involved in the Arctic, and we are sitting on 
our thumbs.
    So what is wrong with leasing a vessel?
    Admiral Salerno. Sir, if I could just take a stab at that--
--
    Mr. Young. Other than being--we have to own our own 
vessels, just like NOAA, which I never understood. Extremely 
expensive. Now, we're in a real crunch, money-wise. So we 
better wake up, because you ain't going to get them. And then 
the United States is behind us.
    So, look at how the bottom dollar--go ahead, Admiral.
    Admiral Salerno. Yes, sir. Just a quick answer to your 
question. We have made a business case analysis of lease versus 
own in the past that was done, I think, about 15 years ago. We 
are redoing that now. I don't have the answer for you yet. But 
I think that is an option that we need to consider as we go 
forward, and define what our needs are in the Arctic, given the 
changing conditions there.
    Part of the high-latitude study is looking at our missions. 
We are taking that study, converting it into a mission analysis 
report, which will give greater definition to that, which will 
trigger another study called a mission needs study, which will 
look at various options as to how we accomplish those missions.
    So, we didn't want to jump to the answer before we do the 
analysis. We know we will need new capability to operate in the 
arctic, as those conditions change, and there is more human 
activity there. As far as the solutions for how we achieve 
that, that is the subject of this ongoing study.
    Mr. Young. All I ask you--Mr. Chairman, if I may--all I ask 
you is keep an open mind and look at the bottom dollar, as far 
as maintenance. Having to put them back in recommission after 
35 years, you turn them back, you're through with them, you've 
done your duty.
    And thank you, by the way, for the high-latitude study, 
finally. I hope this next study doesn't take as long. So get 
back to us as soon as you can, because this is very, very 
important. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Young. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman, and thanks to the 
United States Coast Guard for all the men and women and all the 
sacrifices that you do on a daily basis that none of us really 
know about. So thank you to the sailors and airmen of the Coast 
Guard.
    Admiral Currier, if you don't mind, sir, in regards to 
Coast Guard Authorization Act, you stated in your testimony 
that the Coast Guard initiated action of all 137 provisions of 
the act which service is responsible.
    Prior to 2010 the authorization act of all licensed 
mariners would require a TWIC card. And section 809 of the 2010 
Coast Guard Authorization Act now requires that only mariners 
who are allowed in secure spaces, unescorted access to secure 
area of a vessel, to obtain a TWIC. And thank you very much for 
that; that was great foresight.
    Has section 809 been fully implemented?
    Admiral Salerno. Sir, it is not fully implemented, but we 
are working as rapidly as possible to fully implement that. We 
clearly understand the intent of the law. We are trying to work 
with our department on some harmonization of capturing 
biometric information, which we need for the license--not 
necessarily for the security background check, but for safety 
and suitability, which is a separate requirement for the 
license.
    Previously, the TWIC satisfied that function. So we have to 
separate that out somehow. So we have a plan ahead which we are 
working the details with the Department on how to do that, and 
make it as simple and as painless as possible for the 
individual mariner.
    Mr. Cravaack. Appreciate that. And as Chairman LoBiondo 
said, you have great friends here, and we want to help you, 
assist you in your mission. So we will help you any way we can 
in that aspect, and also give--the needs of our individual 
districts met as well.
    Admiral Salerno. Yes, sir.
    Mr. Cravaack. Admiral, also, since we're on this same page 
here, being a naval aviator, one of the things I am concerned 
about since 2008 we have had 15 operational casualties in the 
Coast Guard. Many of those were due to aviation accidents. And 
sir, I see you have a set of wings on your chest there, so I'm 
sure it is near and dear to your heart, as well.
    What do you believe is the cause for this unusually high 
number of casualties over the past 2 years? And what are you 
doing to address the problem? I have a feeling I know the 
answer, but I just want to make sure.
    Admiral Salerno. Sir, we will both take a stab at that, 
because we both own part of that problem.
    Sir, that was of great concern to the Coast Guard, to the 
commandant personally, and to all of the senior leadership of 
the Coast Guard. And Admiral Currier and I, in our respective 
roles, chartered a study to examine the reasons why. We call it 
the Aviation Safety Assessment Study. And it was a multifaceted 
look not only going--questioning our own workforce, but also 
benchmarking against external organizations on their safety 
programs.
    And what we found is there was a--some issues with rate of 
change--cockpit configuration changes in a fairly short period 
of time, the addition of new missions, the expectation that 
pilots had to know more than maybe had been the case in the 
past. And, quite honestly, some complacency.
    This was a joint effort between our two organizations. But 
as you point out, Admiral Currier is a senior aviator in the 
Coast Guard. So I would like to maybe ask him to comment on 
this, as well.
    Mr. Cravaack. What did you fly, sir? I'm sorry, I don't 
have a background on you.
    Admiral Currier. Oh, I have--everything we have, except for 
C-130s. Unfortunately, now I'm flying a desk. But I do keep 
the----
    Mr. Cravaack. I feel your pain, sir.
    Admiral Currier. Sir, thanks for that question. When we 
looked at 7 class A mishaps that--unfortunately, we lost 14 
people in about a 30-month period, we looked at--we have a very 
sophisticated system of analysis, mishap analysis, as you, as a 
naval aviator, are well familiar.
    What cooks out of an analysis like that are causal or 
contributing factors. Those are the two things we look for. 
When we scrubbed these seven mishaps, we found no intersection. 
So, statistically, one could say it is not enough of an anomaly 
to say it's significant, but we certainly thought it was 
significant, losing 14 people.
    What we were able to do is put together a multidimensional 
study, of which we took personal ownership, and we surveyed our 
entire workforce, and we came up with about five environmental 
factors that contributed to a degradation in the safety posture 
of the Coast Guard aviation. I personally have visited about 
half of the air stations and another senior aviator has visited 
the other half, to have a sit-down, across-the-table, eyeball-
to-eyeball talk with our aviators. And I think it has been very 
successful, to date.
    We have looked introspectively, identified some areas we 
need to improve, and aggressively gotten after them. I think 
this is a success story, as well, sir.
    Mr. Cravaack. Thank you very much, once again, what you do. 
And, Chairman, there will be a second round, sir? OK. Thank you 
very much, sir, and I yield back.
    Mr. LoBiondo. We will now turn to the gentleman from 
coastal Louisiana----
    Mr. Landry. Thank you, Mr. Chairman.
    Mr. LoBiondo. What do we say, Loosiana, here?
    Mr. Landry. Loosiana. I'm sure you will help them if they 
can't understand me. Do a little interpretation for me.
    Mr. LoBiondo. We will have the translator.
    [Laughter.]
    Mr. Landry. Admirals, you know, I've got to tell you. The 
Coast Guard is one of the agencies in this Federal Government 
that I think operates the way agencies should. However, I am 
getting concerned that some of the other rotten apples in the 
bunch are starting to spoil you all. So I am going to be a 
little curt when it comes to these ice breakers that 
Congressman Young was speaking about.
    It frustrates me when we have 8 of our 10 largest ports in 
this country under restrictions because we're not maintaining 
them, and we are $14 trillion in debt, and we spent all this 
money on stimulus that was supposed to stimulate jobs.
    And it also frustrates me when we have equipment up in the 
Arctic which is--which I consider another frontier kind of like 
space. We have already shuttled the shuttle program. And we 
need access to that area.
    Now, when I was in business--because I come from the 
business sector; I was never elected before I held this seat--I 
leased things. And I didn't have to study something to 
determine if I needed to lease it. It was simply a matter of 
discussing with the stakeholders--with either the ship 
builders, or those that would be interested in leasing it--and 
running the numbers to determine whether or not the leasing is 
more affordable than the purchasing.
    And I can tell you that, when it comes to the Federal 
Government, I don't know anything that it can own that the 
private market can't provide more efficiently and more cost 
effective. So please look into this. I think it is something 
that we certainly need to do up there.
    The second point which I came to discuss was the notice of 
arrival. You know, we discussed this several times with you 
all. We have exchanged a series of letters. We still--I think 
we are at an impasse now. I would like you to tell me--or one 
of you all to tell me--what you think that we could insert into 
this--into the Coast Guard reauthorization bill, which will 
help to break that impasse?
    I mean why do we have to treat vessels that are leaving an 
American port, just traveling out to the OCS and coming back to 
an American port, the same way we treat a vessel coming from a 
foreign port, you know, crossing the OCS, and coming into the 
Gulf of Mexico? How can I help you so we can help the industry?
    Admiral Salerno. Sir, as far as the impasse goes, we 
actually do have a chartered effort undertaken with OMSA, the 
Offshore Marine Services Association, to look at the best way 
forward with this. In the interim, that provision in the 
regulations is not being enforced. So currently, nobody is 
being harmed by this. Absolutely understand the concerns that 
you have raised in this and in other hearings, and in 
consultation with you, you know, just a staff-to-staff basis.
    So, we will continue to work with OMSA, and we would like 
to develop recommendations through that effort. And then, sir, 
we would love to convey those recommendations to you, and----
    Mr. Landry. Well, and I appreciate it. Thank you all for 
recognizing that, and thank you all for putting, basically, a 
moratorium on the regulation right now.
    My concern is what happens when you guys leave, and maybe 
someone who is not as bright as you all takes your place, and 
decides to start enforcing it? And so, what I would like to 
do--again, I guess it's my business sense--when I see something 
that is broke, I just want to fix it. You know, is there 
something that we can do which helps give you--I guess to, I 
guess, clarify the issue, whether it be classified--because I 
know OMSA greatly appreciates your position currently, but they 
still believe that there is some sort of impasse in moving 
forward.
    Admiral Salerno. Well, sir, I think we need to stay in 
contact on this issue. I don't have the specific solution 
today, but I do offer myself to be available to you as we work 
through this problem.
    Mr. Landry. Great. That will work. Just something that we 
can do. I just want to help. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. LoBiondo. Mr. Harris? Nothing? Mr. Larsen, do you have 
another round?
    Mr. Larsen. Dr. Bamford, you raised a concern in your 
statement that several States are finding abandoned vessels, 
bringing serious marine debris problems to the economic 
downturn, an issue that has been highlighted, in fact, in my 
district.
    Do derelict vessels fall under the operational definition 
of ``marine debris''?
    Ms. Bamford. Yes, sir, they do.
    Mr. Larsen. They do?
    Ms. Bamford. They do fall under that definition that 
currently is in promulgation.
    Mr. Larsen. OK. So then who is legally responsible for 
removing derelict vessels, once they become inoperable or an 
environmental threat?
    Ms. Bamford. Usually it falls on the State. We recently had 
a--well, in 2009, due to continued questions and concerns about 
derelict vessels, due to the economic downturn, we saw an 
increase, or the States reported an increase.
    We held a workshop with the Federal agencies, as well as 
invited the 30 coastal States, as well as the Great Lakes--
Minnesota was there, as well--and we basically came to the 
resolution, based on laws and regulations, that most of the 
programs fall within the State requirements. So, States have 
programs that either are funded through State authorizations, 
or they develop programs to help in removal funds.
    Where we come in is in helping multi-agency issues. For 
example, one State wants to develop a program, and they are 
looking for information. We tried to provide the best available 
information for them to establish those programs.
    Mr. Larsen. OK. On a related topic, then, for Admiral 
Salerno, the Coast Guard is presently undertaking environmental 
remediation and cleanup activities to remove the derelict barge 
Davy Crockett from the Columbia River. Can you give us the 
status of that cleanup effort? And will the Coast Guard be 
pursuing reimbursement from the vessel's owner for these 
expenses?
    Admiral Salerno. Yes, sir. That is progressing. I know it 
is nearing completion, but I don't have the exact status. I can 
get that for you, for the record.
    [The information follows:]

        Currently, $19.55 million has been committed to the 
        case. The Davy Crockett response continues with effort 
        principally surrounding the removal and cleaning of 
        steel from the barge tanks. A Web site is being 
        maintained by the Unified Command tracking the current 
        progress of the removal, the site is available at: 
        http://www.ecy.wa.gov/programs/spills/incidents/
        DavyCrockett/DavyCrockett.html.

        Consistent with the Oil Pollution Act's ``polluter 
        pays'' principle, the Coast Guard's National Pollution 
        Fund Center recovers oil removal costs and damages from 
        liable polluters and any guarantors to the greatest 
        extent permitted by law. We have no comment on how 
        liability for oil removal costs and damages may 
        ultimately be enforced with respect to the Davy 
        Crockett incident. These are matters within the 
        enforcement discretion of the United States and pending 
        further investigation and close coordination among 
        affected agencies, including the Department of Justice.

    But related to the broader question, this is an example 
where an abandoned vessel also poses an environmental threat. 
And when we have those types of situations, we can access the 
oil spill liability trust fund, open a Federal project to 
remove the pollution threat. In some cases, such as the Davy 
Crockett case, to remove the threat you really need to remove 
the vessel. So that is, functionally, what is happening there.
    In all cases where we open up a Federal project under the 
fund, we do seek recovery of the costs, Federal costs, from the 
owner. That is fairly standard. And, of course, that always is 
somewhat dependent on the owner's ability to pay, but we do 
seek to recover.
    Mr. Larsen. So you are seeking cost recovery because this 
is a fund issue, oil spill fund----
    Admiral Salerno. Yes. All of the Federal expenditures--and 
also, if--I don't know all the details of the funding structure 
for this case----
    Mr. Larsen. Right, right.
    Admiral Salerno [continuing]. But we can hire State 
officials, as well, under the fund. Whatever expenditures are 
charged against the fund we do seek to recover from the 
responsible party.
    Mr. Larsen. OK, thank you. Admiral Salerno, with regard to 
fishing vessel examinations, the Coast Guard has estimated it 
will need to hire no fewer than 60 full or part-time inspectors 
to conduct examinations of roughly 30,000 fishing vessels by 
the statutory deadline of October 2012.
    How do you intend to address this requirement if the budget 
provides less funding for rulemaking? And does the Coast Guard 
intend to shift funds from other accounts in order to maintain 
its rulemaking program?
    Admiral Salerno. Sir, it will be challenging to complete 
all of the fishing vessel examinations with our existing active 
duty workforce. We would look to leverage some other 
opportunities to help accomplish the requirements for the 
examinations--for example, using our Coast Guard auxiliary, and 
also leveraging some third-party capability.
    If there are--if that does not satisfy the requirement, if 
the workload is simply too great, then we would need to seek 
additional resources. But we are not at that stage yet. We do 
not plan to shift accounts, you know, specifically for that 
purpose. Essentially, the burden would fall on our cadre of 
marine inspectors that are currently in our workforce also 
performing other vessel inspection activities.
    Mr. Larsen. Would auxiliary or a third party have authority 
to ultimately sign off on the examination?
    Admiral Salerno. The--some of those details, sir, have to 
be worked out. We did have a legal matter which is being 
resolved regarding the use of the auxiliary, for example. As 
you know, they are not allowed to engage in law enforcement 
activity. So pending is a decision whether we can use them to 
sign off, or just simply as an assistant for a Coast Guard 
officer or petty officer.
    But we--they at least provide a force that can be used to 
help streamline the inspection when we do that.
    Mr. Larsen. Should we expect that the Coast Guard is going 
to ask for a push back of the October 2012 timeline?
    Admiral Salerno. Sir, I don't know if we have asked for 
that. I would have to get back to you on that.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman. Ms. Bamford, I have 
had the great opportunity, as a Reservist, to be attached to a 
command that was attached to Midway Island. And I have walked 
Midway Island's beaches. And I know that this is just--debris 
is not just a United States problem, it is a global problem, 
and it gets washed up on the beaches.
    Can you tell me, in your analysis of the--I'm assuming you 
did an analysis of the debris that was on our beaches--how much 
is--you know, comes from the United States versus other 
countries?
    Ms. Bamford. That's a great question, and one that is 
extremely hard to answer.
    It depends. When you look at Midway, you're absolutely 
right. A lot of that debris is mixed, it's from international 
origin, as well as from U.S. The majority of what we see there 
is international in origin. It's a lot of fishing gear. We have 
actually found debris out there from World War II, material 
that we find from an old sailor's vest. And so you see that 
this stuff actually exists out in the ocean for decades. It 
gets caught up in the convergence zones and then deposits 
itself on Midway.
    When you actually look at around our coast here on the East 
Coast and West Coast, you see a lot more debris coming from the 
United States, obviously. It's a lot of waste, commercial 
waste, plastic debris, bags, things like that, that come from 
the U.S. And we see that after storms, coming out of storm 
drains. It is basically a waste management issue that we see 
here.
    So, in order to tackle both of those, we have to look at 
marine debris as a ubiquitous problem. It knows no 
international or State boundaries. So we try to develop 
programs that address both domestic, as well as foreign, 
debris.
    Mr. Cravaack. Ma'am, could you tell me, are the other 
international communities involved with this, as well? I mean 
is it just the United States bearing the brunt of all this?
    Ms. Bamford. Yes, sir, they are. We just had an 
international conference. The Fifth International Marine Debris 
Conference was recently held in Hawaii. We had over--close to 
400 participants from 30 international countries. And we just 
started those conversations again, because the previous 
international marine debris conference was a decade ago, 10 
years ago, and NOAA, with UNEP, cosponsored this one we just 
had, and it really started those conversations in developing 
strategies on an international forum.
    So, those engagements have been re-energized, and the 
outcome from that particular conference is continuing on today 
through strategies and programs that are being developed.
    Mr. Cravaack. OK. Thank you, ma'am. The--according--my 
understanding is the Marine Debris Research, Prevention, and 
Reduction Act authorized--was it $2 million--through fiscal 
year 2010 for the Coast Guard to enforce requirements which 
prohibits at-sea discharge of plastic trash and vessels.
    Of the $2 million authorized, how much has been spent on 
this program? I don't know if the Coast Guard would answer 
that, or you would answer that, ma'am.
    Ms. Bamford. I will defer to the Coast Guard.
    Mr. Cravaack. Thank you, ma'am.
    Admiral Salerno. Sir, there was no money specifically 
appropriated to the Coast Guard for that. However, we have been 
working in very close partnership with NOAA on the marine 
debris program. And that has taken a number of different forms.
    Probably the most dominant is our--we have blended in 
enforcement of the MARPOL Annex V into our normal ports that 
control examinations, so that 9,000 or so international vessels 
that call at the United States every year are examined by the 
Coast Guard for a number of things, including compliance with 
the international treaties on--to prevent discharge of garbage 
at sea.
    We also make sure that any facility that receives an 
international vessel or domestic vessel has the capability to 
receive garbage, so that there is a place for it to go, other 
than into the ocean.
    We have used our own ships as available. You know, for some 
of the activities that were mentioned by Congressman Farr--for 
example, out in the Pacific doing cleanups, working with NOAA, 
with the Army, recovering abandoned nets and so forth, and 
bringing quite a bit of it back--and also we have engaged with 
our sea partners program, with the public, with school 
children, with recreational boaters, again, just sensitizing 
them to the need to put trash in its proper place.
    Mr. Cravaack. Thank you, sir. Appreciate that.
    Dr. Bamford, again, we have talked a little bit about the 
West Coast, we have talked about the Gulf. But near and dear to 
my heart is Great Lakes. Can you just comment a little bit 
about the Great Lakes?
    Ms. Bamford. Yes, sir. The program recently expanded our 
regional coordinator into the Great Lakes. The majority of what 
we see up there in terms of a problem is a lot of the plastic 
debris, and the papers and the bags.
    The ocean conservancy, we partner with them in the 
International Coastal Cleanup, and they have a very strong and 
a very good presence up in the Great Lakes.
    The--also the issue of abandoned vessels is a problem 
outside navigable waterways, and we see that and we try to work 
with that in developing programs with the States. But we have, 
as a program, just recently--that was our latest coordinator, 
due to the need in the Great Lakes for a Federal presence to 
support the States in marine debris reduction efforts.
    Mr. Cravaack. Thank you, Doctor. And with that, Mr. 
Chairman, I yield back.
    Mr. LoBiondo. OK. Thank you. You still good, Andy? OK.
    Thank you very much. Just one kind of last thing. Admiral 
Salerno, you noted that you had become the DCO and Admiral 
Currier has become the DCMS. Congratulations to both of you. 
Good luck.
    The question is, will the Atlantic and Pacific area 
commanders remain in those positions, or are they slated to 
become deputy commandants or commanders of operation for the 
command and for force of command?
    Admiral Salerno. Sir, they will remain as Atlantic area and 
Pacific area, respectively.
    Mr. LoBiondo. OK. Admiral Currier, Admiral Salerno, Dr. 
Bamford, thank you very much for your testimony.
    The committee meeting is adjourned.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
